CASE No.

In The Supreme Court of the United States

JOHN MANDACINA,
Petitioner,
v.
FREDERICK ENTZEL,
Respondent.
On Petition for Writ of Certiorari
to the
United States Court of Appeals
for the Seventh Circuit
PETITIONER’S APPENDIX
Brandon Sample
Brandon Sample PLC
1701 Pennsylvania Ave., N.W. #200
Washington, DC 20006-5823
Phone: (802) 444-4357
Fax: (802) 779-9590
Vermont Bar No. 5573
Email: brandon@brandonsample.com
https://brandonsample.com
Counsel for Petitioner

I. TABLE OF
CONTENTS

APPENDIX A ............................................... 1A
(November 18, 2019, Order Dismissing 28
U.S.C. § 2241)
APPENDIX B ............................................. 24A
(March 12, 2021, Opinion Affirming District
Court)
APPENDIX C ............................................. 30A
(March 12, 2021, Appellate Court Judgment)

1A
APPENDIX A
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
PEORIA DIVISION
JOHN A. MANDACINA
Petitioner,
v.
STEVE KALLIS, Warden,
Respondent.
Case No. 18-cv-1453-SLD
November 18, 2019
ORDER AND OPINION
Before the Court is Petitioner John A.
Mandacina’s Petition for Writ of Habeas Corpus
under 28 U.S.C. § 2241 (Doc. 1). Mandacina alleges
he has a meritorious Giglio claim that he could not
have reasonably discovered prior to his initial
motion under 28 U.S.C. § 2255. He argues this
situation falls within the savings clause of 28
U.S.C. § 2255(e), allowing him attack his
conviction under § 2241. For the reasons set forth
below, the Court finds that Mandacina’s claim

2A
does not fall with the savings clause and his
Petition (Doc. 1) must be DISMISSED.
I. BACKGROUND
A. Factual Background of Mandacina’s Conviction
In May 1993, in the District Court for the Western
District of Missouri, Mandacina and his
codefendant Patrick H. McGuire were charged
with conspiring to retaliate against an informant,
in violation of 18 U.S.C. § 371; retaliating against
an informant, in violation of 18 U.S.C. § 1513(a);
using interstate commerce in the commission of
the retaliation, in violation of 18 U.S.C. § 1958;
and using a firearm in the commission of the two
substantive offenses, in violation of 18 U.S.C. §
924(c). See United States v. McGuire, 45 F.3d
1177, 1180 (8th Cir. 1995); United States v.
McGuire, 4:93-cr-00073 (W.D. Mo.). “The charges
arise from the murder of Larry Strada, a witness
before the grand jury which indicted Mandacina
for illegal gambling. The jury found that
Mandacina agreed to pay McGuire $25,000 to
murder Strada and that McGuire did so.”
McGuire, 45 F.3d at 1180.
In briefing, the parties both relied on the thorough
factual summary recounted by the Eighth Circuit
in Mandacina’s direct appeal:
Larry Strada provided information to the FBI
implicating Mandacina in bookmaking and other

3A
criminal activity in the Kansas City area.
Mandacina later pled guilty to charges of
conspiracy to conduct an illegal gambling
business. On May 3, 1990, Mandacina was
sentenced to twelve months imprisonment.
At approximately 2:00 a.m. on May 16, 1990, Larry
Strada returned home from a bar he operated and
was killed in front of his home while taking out the
trash. He was shot six times in the head and twice
in the chest. The gunman did not take Strada’s
jewelry, his wallet with approximately $200 in
cash, or a bank bag with the bar’s nightly receipts.
The Kansas City Area Metro Squad investigated
Strada’s murder for approximately one week
before turning it over to the FBI and law
enforcement authorities in Gladstone, Missouri.
No one found a weapon, a witness, or a lead. In
mid-December 1990, McGuire and his brother-inlaw Terry Dodds were arrested while committing
a bank robbery in Milwaukee, Wisconsin. Dodds
pled guilty to bank robbery and firearm charges,
and received a sentence of seven years, nine
months. In early 1992, Dodds decided to cooperate
with the federal authorities. FBI Agent Daniel
Craft interviewed Dodds regarding a number of
bank robberies. During this interview, Dodds
implicated Thomas Earlywine as a participant in
the robberies. Dodds also stated that he had
overheard a conversation in which Mandacina said
that he wanted somebody killed who had fingered
him for a crime.

4A
The FBI arrested and interviewed Earlywine
about the robberies and the contract killing in
Kansas City. Earlywine identified the victim of the
contract killing as Lonnie or Larry Strada or
Strocka. Earlywine told Agent Craft that, in May
of 1990, a hitman murdered Strada while Strada
was taking out his trash, and that Mandacina
ordered the hit for $25,000.
Earlywine testified at trial that, in November
1989, Earlywine and Dodds went to the Red Front
Restaurant and Lounge in the river market area
of Kansas City. Both Earlywine and Dodds
described a conversation in which Mandacina told
McGuire that he had been indicted on federal
gambling charges and that he thought that Strada
had already fingered him or was preparing to do
so. Mandacina then asked if McGuire would kill
Strada.
Earlywine stated that McGuire bragged
previously that he would do anything for
Mandacina or members of Kansas City organized
crime, including “heavy work,” i.e. murder.
McGuire told Earlywine that he wanted to
ingratiate himself with the people he believed to
be in “the outfit” or mafia in Kansas City.
Earlywine also testified that on another occasion,
Mandacina mentioned the gambling indictment,
but told McGuire and Earlywine that he did not
want to talk further at the Red Front. He
suggested that they go to his brother-in-law's

5A
restaurant, “Chubby’s.” Once there and while in
Earlywine’s presence, Mandacina said that he
wanted Strada murdered and that he would pay
McGuire $25,000 to do it. Mandacina also asked
McGuire if he would murder Mandacina’s son-inlaw. McGuire said that he would and that it would
be “gratis,” or free.
In June 1990, McGuire met Earlywine at a bar in
Rockford and told Earlywine that Strada had been
murdered. McGuire said that Strada was
murdered while taking out his trash and that he
had deserved it. Earlywine did not ask McGuire if
he killed Strada, because Earlywine believed that
McGuire would have told him directly if McGuire
wanted him to know.
In July 1990, Earlywine and McGuire came to
Kansas City. McGuire called Frank Angotti and
arranged to meet him for a drink at the Red Front.
In an attempt to get Angotti to join their crime
spree, McGuire told Angotti about the bank
robberies in which Earlywine, Dodds and McGuire
were involved and took him outside to show him a
bag full of guns and a bag full of money. They then
went back into the Red Front. Angotti testified to
the following exchange, which occurred after
Earlywine left the table:
I told Pat [McGuire], I said, “Pat, I have been
hearing rumors about you.” He said, “What kind of
rumors?” I said, “Well, I hear that you did Larry.
Did you do Larry?” He said yes.

6A
At trial, Dodds and Earlywine testified regarding
numerous robberies involving both of them and
McGuire. They also testified regarding the
necessity of obtaining weapons for this purpose.
While drinking in Jennie’s restaurant in
downtown Kansas City, Earlywine and Dodds
testified that McGuire asked the bartender where
he could buy more guns. The bartender introduced
McGuire to a woman at the bar, Brock
Decastrogiovannimausolf, whose boyfriend owned
a gun shop. The next day Brock introduced
McGuire to the gun shop’s owner, Dennis Crouch.
At first Crouch refused to sell guns to McGuire,
and McGuire enlisted John Mandacina to give
assurances to Crouch for the sale, which was
ultimately concluded.
McGuire, 45 F.3d at 1181–82. As Mandacina
highlights, and as is relevant to his current claim,
the prosecution relied, in part, on the testimony of
Agent Daniel Craft to proof its case. Agent Craft
was one of the key FBI Agents who conducted the
initial interviews of Dobbs and Earlywine.
According to Mandacina’s brief, the prosecution, in
his closing argument at trial, told the jury that “[i]f
you think Earlywine is lying, if you want to believe
that, then you have to believe that Special Agent
Craft fed him all this stuff. . . .” Pet. at 10 (Doc. 1).
The prosecution also told the jury “[t]here is some
dispute, and I am not sure we will ever get to the
bottom of it, about whether Dodds gave Special
Agent Craft the name Larry Strada during that

7A
first interview.” Id. Accordingly, Agent Craft’s
testimony and reliability was, at a minimum, at
issue at the trial.
B. Evidence of Agent Craft’s Previous Misconduct
Unbeknownst to Mandacina at the time of trial
and until after his initial motion under 28 U.S.C.
§ 2255 was denied, Agent Craft had engaged in
previous misconduct. In 1983, Agent Craft had
“conspired to falsify the results of a polygraph
examination” that he had administered. (R. 1688).
As summarized in a letter by FBI officials
disciplining Craft:
The results of the tests in which [Craft] contrived
to circumvent established Bureau procedures
could have caused damage to this vital program.
[Craft’s] conduct in this matter undercut the
integrity of the polygraph process and cannot be
condoned. [Craft’s] attempt to cover up an
employee’s mis-representations, if undetected,
would have usurped the authority and
responsibility of the Director to deal fairly and
impartially with matters of internal misconduct.
Pet. App. at R. 1689 (Doc. 1-7 at 89).
Additionally, Agent Craft mishandled memos
called “302” reports regarding eyewitness photo
identifications in a federal bank robbery case,
which lead to the wrongful convictions of Frank
Bolduc and Francis Larkin. See Bolduc v. United
States, 402 F.3d 50, 52 (1st Cir. 2005). In the 302

8A
reports eyewitnesses had identified other
individuals as the perpetrators, but the 302
reports were not placed in the investigation file,
were not turned over to the U.S. Attorney’s Office,
and were not made available to the defendants. Id.
The memos later were discovered when the true
bank robbers confessed to the crimes.
Mandacina also points the Court to misconduct of
Agent Craft that occurred after Mandacina’s trial.
See United States v. Acosta, 111 F. Supp. 2d 1082,
1088 (E.D. Wis. 2000)(recounting misconduct of
Agent Craft in Minnesota involving failure to heed
a request for counsel).
C. Procedural History of Mandacina’s PostConviction Relief Attempts.
Mandacina and his co-defendant were found guilty
on all counts. The district court sentenced
Mandacina to life imprisonment, and the Eighth
Circuit affirmed his conviction and sentence in
January 1995. McGuire, 45 F.3d at 1190.
Mandacina filed a Motion to Set Aside, Vacate, or
Correct Sentence pursuant to 28 U.S.C. § 2255,
alleging various Brady and ineffective assistance
of counsel claims. See Mandacina v. United States,
4:97-cv-00572-HFS (W.D. Mo.). His claims were
dismissed, with the exception of his claim of newly
discovered evidence regarding footprint evidence
at the murder scene. Mandacina v. United States,
328 F.3d 995, 997 (8th Cir. 2003). On September
27, 2000, Mandacina requested leave to

9A
supplemental his § 2255 motion. Id. After
discovery, the district court denied leave to
supplement his claims, finding his additional
claims untimely, and denied the footprint evidence
claim on the merits. Id.
Mandacina appealed to the Eighth Circuit. While
his appeal was pending, but after briefing was
complete, Mandacina moved to add the claim he
seeks to bring now—that the Government
withheld the impeachment material regarding
Agent Craft’s misconduct in other unrelated cases.
The Eighth Circuit stated that “we reject
Mandacina’s arguments that his remaining
supplemental claims, including the St. John
evidence, are timely filed under section 2255[(f)](2)
and (4) or that the claims relate back to the
original motion.” Mandacina, 328 F.3d at 1002.
However, the opinion as a whole does not mention
his motion to supplement the record or his Giglio
claim, so it seems unlikely that this language was
meant to address his Giglio claims. Instead, it
appears that the Eighth Circuit did not address
the motion to supplement with the Giglio claim at
all.
Mandacina sought leave to file a second or
successive § 2255 motion with the Eighth Circuit,
again raising his claim that the Government
violated Giglio by failing to turn over material
evidence about Agent Craft’s prior misconduct.
Mandacina v. United States, No. 05-2186 (8th Cir.
2005). The Government opposed, arguing that the
evidence could not meet the requirements of §

10A
2255(h)(1) because it was not “newly discovered”
and it was only impeaching, therefore, it could not
meet the requirement that the evidence “be
sufficient to establish by clear and convincing
evidence that no reasonable factfinder would have
found the movant guilty of the offense.” See 28
U.S.C. § 2255(h)(1). The Eighth Circuit denied the
request without a detailed explanation on June 8,
2005.
On December 24, 2018, Mandacina filed the
instant petition (Doc. 1) pursuant to 28 U.S.C. §
2241. He alleges he is entitled to relief pursuant to
Giglio v. United States, 405 U.S. 150 (1972), due
to the Government’s failure to turn over the
impeachment evidence regarding Agent Craft.
Moreover, he argues that he is entitled to attack
his conviction under § 2241 because of a structural
problem with § 2255 that makes relief under §
2255 “inadequate or ineffective to test the legality
of his detention.” The Government filed a response
on February 25, 2019, and Mandacina filed a reply
on April 1, 2019. This Order follows.
II. DISCUSSION
Mandacina seeks to bring a § 2241 claim attacking
his conviction based on Giglio v. United States, 405
U.S. 150, 92 S. Ct. 763 (1972). In Brady v.
Maryland, 373 U.S. 83, 83 S. Ct. 1194 (1963), the
Supreme Court held that suppression of evidence
that is material to either guilt or punishment
justifies a new trial “irrespective of the good faith

11A
or bad faith of the prosecution.” 373 U.S. at 87. In
Giglio, the Supreme Court clarified that, where
the reliability of a witnesses may be determinative
of guilt or innocence, failure to disclose evidence
affecting credibility falls within this general rule.
405 U.S. at 153. To bring a successful Giglio claim,
a petitioner need only prove that the evidence
withheld was “material,” such that there is a
“reasonable likelihood” that the withheld evidence
could have affected the judgment of the jury. Id.
Mandacina argues his Giglio claim meets this
standard and entitles him to a new trial or release.
Generally, federal prisoners who seek to
collaterally attack their conviction or sentence
must proceed by way of motion under 28 U.S.C. §
2255, the so-called “federal prisoner’s substitute
for habeas corpus.” Camacho v. English, 16-3509,
2017 WL 4330368, at *1 (7th Cir. Aug. 22, 2017)
(quoting Brown v. Rios, 696 F.3d 638, 640 (7th Cir.
2012)). While a Giglio claim can proceed in an
initial § 2255 motion, Giglio claims brought in a
second or successive § 2255 motion can only
proceed if they meet the heightened gatekeeping
requirements the Antiterrorism and Effective
Death Penalty Act (“AEDPA”) put on successive
motions. Section 2255(h) provides that a second or
successive motion must contain:
(1) newly discovered evidence that, if proven and
viewed in light of the evidence as a whole, would
be sufficient to establish by clear and convincing
evidence that no reasonable factfinder would have
found the movant guilty of the offense; or

12A
(2) a new rule of constitutional law, made
retroactive to cases on collateral review by the
Supreme Court, that was previously unavailable.
28 U.S.C. § 2255(h). A claim based on Giglio does
not rely on a new rule of constitutional law, so
would not fall under § 2255(h)(2). Moreover, a
Giglio claim based on newly discovered evidence
that meets the materiality standard for a Giglio
claim—that there is a “reasonable likelihood” that
the withheld evidence could have affected the
judgment of the jury—only meets the gatekeeping
requirements if it can also meet the heightened
standard that, in light of the evidence as a whole,
there is “clear and convincing evidence that no
reasonable factfinder would have found the
movant guilty of the offense.” 28 U.S.C. §
2255(h)(1).
Some petitioners in recent years have attempted
get around the gatekeeping provisions for second
or successive petitions by arguing that a Giglio or
Brady claim based on evidence that could not have
been discovered earlier with due diligence does not
qualify as a “second or successive” motion. This
argument draws support from Panetti v.
Quaterman, 551 U.S. 930 (2007), which held that
a Ford-based claim of incompetency to be executed
was not barred as a second or successive petition
since the factual predicate for the claim was not
ripe until the petitioner’s date of execution was set.
However, all courts of appeals to have addressed
such claims have held that second-in-time § 2255

13A
motions raising Giglio and Brady claims based on
newly discovered evidence are second or successive
motions, as “the violation occurs at the time the
[prosecution]
should
have
disclosed
the
exculpatory evidence—i.e. before trial.” Brown v.
Muniz, 889 F.3d 661, 672–73 (9th Cir. 2018)
(noting that its finding aligned with the Fourth,
Tenth and Eleventh Circuits). See also, Scott v.
United States, 890 F.3d 1239, 1243 (11th Cir.
2018), cert. denied, 139 S. Ct. 842, 202 L. Ed. 2d
631 (2019) (holding claim qualified as second or
successive under application of past circuit
precedent, but expressing doubt that it was the
correct decision and concern that such a result
could qualify as a suspension of the writ of habeas
corpus); Baranski v. United States, 880 F.3d 951,
958 (8th Cir. 2018), cert. denied, 139 S. Ct. 266,
202 L. Ed. 2d 134 (2018); Evans v. Smith, 220 F.3d
306, 323 (4th Cir. 2000) (“[T]he standards that
Congress has established for the filing of second or
successive petitions account for precisely the type
of situation Evans alleges”—Brady claims). At this
point, of course, a contrary holding would not help
Mandacina—even if his claim was not subject to
the
second
or
successive
gatekeeping
requirements, it is no longer timely under § 2255.
Here, Mandacina seeks to get around the
gatekeeping requirements in another way— he
argues he should be able to proceed under the socalled “savings-clause” of § 2255(e). Under the
savings clause a federal prisoner may petition
under § 2241 if the remedy under § 2255 “is
inadequate or ineffective to test the legality of his

14A
detention.” 28 U.S.C. § 2255(e). The Seventh
Circuit has previously stated that under the
“escape hatch” of § 2255(e), “[a] federal prisoner
should be permitted to seek habeas corpus only if
he had no reasonable opportunity to obtain earlier
judicial correction of a fundamental defect in his
conviction or sentence because the law changed
after his first 2255 motion.” In re Davenport, 147
F.3d 605, 611 (7th Cir. 1998). Since Davenport, the
Seventh Circuit has generally applied some
version of the following test: “[t]o pursue relief
under § 2241, a petitioner must establish that ‘(1)
the claim relies on a statutory interpretation case,
not a constitutional case, and thus could not have
been invoked by a successive § 2255 motion; (2) the
petitioner could not have invoked the decision in
his first § 2255 motion and the decision applies
retroactively; and (3) the error is grave enough to
be deemed a miscarriage of justice.’” Chazen v.
Marske, 938 F.3d 851, 856 (7th Cir. 2019) (citing
Beason v. Marske, 926 F.3d 932, 935 (7th Cir.
2019)).
However, Mandacina does not argue his claim
could meet the Davenport test. Rather, he argues
that this test does not describe the only
circumstances that justify relief under the
savings-clause. As Mandacina points out, the
Seventh Circuit, in Webster v. Daniels, 784 F.3d
1123 (7th Cir. 2015) (en banc), has also allowed a
different type of claim to proceed under § 2241
pursuant to the savings clause. In Webster, the
Seventh Circuit held “that there is no categorical

15A
bar against resort to section 2241 in cases where
new evidence would reveal that the Constitution
categorically prohibits a certain penalty.” Id. at
1139. Such cases could not proceed under §
2255(h)(1), because the new evidence only proved
innocence of the sentence, but not the offense. Id.
The Webster holding relied on the statutory
language as well as the fact that the Supreme
Court had not yet decided the cases of Atkins and
Roper,
which
created
circumstances
of
constitutional ineligibility for a sentence, at the
time AEDPA was passed. Id. The Seventh Circuit
noted that “a core purpose of habeas corpus is to
prevent a custodian from inflicting an
unconstitutional sentence.” Id. The Seventh
Circuit also noted that “[i]t will be a rare case
where records that predate the trial are found
much later, despite diligence on the part of the
defense, and where those records bear directly on
the constitutionality of the death sentence.” Id. at
1140.
Mandacina argues a Giglio claim based on
evidence that could only reasonably be discovered
after a petitioner’s initial § 2255 motion is decided,
is another type of claim that falls under the
savings clause. As an initial matter, the
Government argues that Mandacina does not have
such a claim, because his claim could have been
reasonably discovered during the pendency of his
initial § 2255 motion. This is because the Acosta
case, addressing later misconduct of Agent Craft,
was first published on August 26, 2000, and was

16A
released again after being amended on October 2,
2000. Resp. at 12 (Doc. 6); Acosta, 111 F. Supp. 2d
at 1088-89. Mandacina argues that he could not
have raised his Giglio claim in August 26, 2000,
because it would have been deemed untimely. This
is incorrect if Mandacina’s evidence was newly
discovered. Newly discovered evidence would have
been independently timely under § 2255(f)(4)—
which provides a one year time limitation from
“the date on which the facts supporting the claim
or claims presented could have been discovered
through the exercise of due diligence.” However,
while the Acosta case might have implied that
other evidence existed that could have been used
as impeachment evidence in Mandacina’s case, the
misconduct addressed in Acosta itself could not
have been the basis for a Giglio claim as the Acosta
misconduct occurred in 1999, after Mandacina’s
trial. Acosta, 111 F. Supp. 2d at 1088-89.
Accordingly, the Court finds it questionable
whether the publication of this case alone provided
Mandacina with sufficient notice that he may have
a Giglio claim. And Respondent has not argued
that the alleged misconduct from the Bolduc case
or the 1983 misconduct on the polygraph
examination was reasonably available before the
district court denied Mandacina’s initial § 2255
motion.
Alternatively, it is possible that the Eight Circuit’s
language in Mandacina’s appeal of his initial §
2255 motion, finding his supplemental claims
untimely under § 2255(f)(2) and (4), applied to the

17A
Giglio claim regarding Agent Craft as well, and the
Eighth Circuit found that he could have brought
the claims earlier. Mandacina, 328 F.3d at 1002
(“[W]e reject Mandacina’s arguments that his
remaining supplemental claims, including the St.
John evidence, are timely filed under section
2255[(f)](2) and (4) or that the claims relate back
to the original motion.”). If that is the case, then
there was no structural problem with § 2255 that
foreclosed his claim. Mandacina may believe that
the Eighth Circuit’s decision was wrong, but his
remedy was to appeal. See Taylor v. Gilkey, 314
F.3d 832, 835 (7th Cir. 2001) (stating that the
language “to test the legality” of the detention
“implies a focus on procedures rather than
outcomes. Judges sometimes err, but this does not
show that the procedures are inadequate; it only
shows that people are fallible.”). As noted above
though, it seems unlikely that the Eighth Circuit
addressed these claims in Mandacina’s appeal of
his § 2255 motion.
However, assuming Mandacina’s claim could not
have been discovered in time for adjudication in
his initial § 2255 motion and the issue was not
previously addressed by the Eighth Circuit, the
Court still finds Mandacina’s claim cannot
proceeded under the savings clause. Mandacina
argues that his claim must be able to proceed
under the savings clause because a Giglio claim
can never meet the requirements of § 2255(h)(1)
because such evidence is impeaching only.
Mandacina also argues that there would be a “host

18A
of problems” if a later discovered Giglio claim was
not allowed to proceed under § 2255(e). First, such
a
rule
might
“incentivize
governmental
misconduct through the withholding of Giglio
material until after § 2255 relief has been denied,
thereby allowing the error to escape judicial
review.” Pet. at 18 (Doc. 1). Second, Mandacina
argues that a contrary holding would amount to an
unlawful suspension of the writ of habeas corpus.
Id.
Notably, the Eleventh Circuit in Scott v. United
States, 890 F.3d 1239 (11th Cir. 2018), expressed
similar concerns. The Eleventh Circuit in Scott
found it was bound by circuit precedent to hold
that a later-discovered Brady/Giglio claim was a
second or successive motion, but the panel believed
that the result was incorrect. As the Eleventh
Circuit noted in dicta, the finality concerns that
led to the enactment of AEDPA are not the same
with regard to Brady/Giglio claims:
[T]he government cannot be heard to complain of
trial prejudice from a new trial necessitated by its
own late disclosure of a Brady violation, since it is
solely responsible for inflicting any such prejudice
on itself in such circumstances. Whatever finality
interest Congress intended for AEDPA to promote,
surely it did not aim to encourage prosecutors to
withhold constitutionally required evidentiary
disclosures long enough that verdicts obtained as
a result of government misconduct would be
insulated from correction. Scott, 890 F.3d at 1252.

19A
The Eleventh Circuit also found there could be
constitutional
concerns:
“the
Constitution
guarantees criminal defendants a fair trial. . . . So
imprisoning someone based on the results of an
unfair trial and then precluding any remedy at all
might well work a suspension of the writ of habeas
corpus.” Scott, 890 F.3d at 1251 (internal citations
omitted). And, the Supreme Court has clearly held
that where there was a Giglio violation, there has
not been a fair trial.
While these concerns cannot be ignored, the Court
finds that the statutory language, as well as
Seventh Circuit precedent preclude such a reading
of the savings clause. Unlike the type of claim at
issue in Webster, new evidence that revealed a
punishment was constitutionally prohibited, a
Giglio claim falls squarely within the type of
claims § 2255(h)(1) intended to limit. While §
2255(h)(1) does not allow any claims that a person
is constitutionally innocent of the type of
punishment, § 2255(h)(1) would allow a Giglio
claim that meet the heightened “clear and
convincing” standard. Mandacina argues no Giglio
claim could meet this heightened standard, but the
Court disagrees. There could be a case where laterdiscovered evidence showed that a material
prosecution witness was clearly lying—which if
the prosecution had little or no other evidence of
guilt could amount to “clear and convincing
evidence that no reasonable factfinder would have
found the movant guilty of the offense.”

20A
Moreover, in Webster, the Court found that the
issue was open “both from the standpoint of
legislative history and that of Supreme Court
rulings” because:
The problem before us, quite simply, is not one
that Congress could have contemplated. At the
time AEDPA was under consideration, the
Supreme Court had not yet held it
unconstitutional to execute either an intellectually
disabled person (Atkins) or a minor (Roper v.
Simmons, 543 U.S. 551, 125 S.Ct. 1183, 161
L.Ed.2d 1 (2005)).
Webster, 784 F.3d at 1138. The same cannot be
said of Giglio claims, of which Congress was aware
at the time it wrote the statute. It can be assumed
that Congress took such claims into account when
writing the statute and that Congress found that
later-discovered Giglio claims were not the type
that deserved a second “bite at the apple.” See In
re Davenport, 147 F.3d 605, 610 (7th Cir. 1998). In
short, the Court finds that later-discovered Giglio
claims are exactly the type of cases Congress
meant to restrict under § 2255(h)(1) when it
passed AEDPA.
Moreover, in allowing petitions to proceed under §
2255(e), the Seventh Circuit has demanded a
showing of both “a structural problem in § 2255
forecloses even one round of effective collateral
review” as well as “the claim being foreclosed is
one of actual innocence.” Taylor v. Gilkey, 314 F.3d
832, 835 (7th Cir. 2002). The Seventh Circuit’s

21A
definition of actual innocence in this context
includes both innocence of the crime and the
sentence (and the sentencing enhancement), see,
e.g., Brown v. Caraway, 719 F.3d 583, 587-88 (7th
Cir. 2013), but, regardless, requires some showing
of innocence. This additional requirement is
crucial, as otherwise any claim that is barred by §
2255(h) would fit within the savings clause. See
Garza v. Lappin, 253 F.3d 918, 922 (7th Cir. 2001)
(noting “[t]he fact that the motion would be barred
as a successive petition under § 2255 . . . is not
enough to bring the petition under § 2255’s savings
clause; otherwise, the careful structure Congress
has created to avoid repetitive filings would
mean little or nothing”); Hicks v. Krueger, No. 141458, 2015 WL 13048444, at *1 (C.D. Ill. June 8,
2015) (“[T]his Court cannot believe that the Court
of Appeals intended their decisions to utterly
eviscerate the procedural limitations on successive
§ 2255 motions or grossly expand the limited scope
of § 2241 to eliminate any need to demonstrate
actual innocence of either the crime or the
sentence enhancement.”). Here, Mandacina
concedes that his claim falls short of a showing of
actual innocence. Moreover, if it did, it would not
have been barred under § 2255(h)(1) anyway.
Furthermore, the Court does not find that this
result is a violation of the Suspension Clause, Art.
I, § 9, cl. 2 of the Constitution. As noted by the
dissent in Webster, the Seventh Circuit has long
“held that the Suspension Clause protects only the
‘Great Writ’—that is, the writ used to contest

22A
pretrial detention by the Executive Branch.
Collateral review following conviction by a court of
competent jurisdiction did not exist until the
Twentieth Century, and we held that Congress is
free to limit the extent to which federal courts can
provide post-conviction collateral remedies.”
Webster, 784 F.3d at 1153 (J. Easterbrook,
dissenting) (citing Lindh v. Murphy, 96 F.3d 856,
867–68 (7th Cir.1996) (en banc), reversed on other
grounds, 521 U.S. 320, 117 S.Ct. 2059, 138 L.Ed.2d
481 (1997)). Moreover, shortly after the enactment
of AEDPA, the Supreme Court found that the
added
restrictions
are
not
generally
constitutionally
problematic:
“The
added
restrictions which the Act places on second habeas
petitions are well within the compass of [the]
evolutionary process [of abuse of the writ law], and
we hold that they do not amount to a “suspension”
of the writ contrary to Article I, § 9.” Felker v.
Turpin, 518 U.S. 651, 664, 116 S. Ct. 2333, 2340
(1996). Importantly, Felker also highlighted “that
judgments about the proper scope of the writ are
‘normally for Congress to make.” Id. at 664 (citing
Loncahr v. Thomas, 517 U.S. 314, 323, 116 S. Ct.
1293, 1298 (1996)).
While a petitioner with a meritorious Giglio claim
would, by definition, have had an unfair trial—and
whether Mandacina’s Giglio claim is meritorious is
questionable, but is an issue the Court declines to
reach—that alone does not mean that a petitioner
is still entitled to relief on his claim years after the
alleged Giglio violation occurred. And, Congress is

23A
free to limit the availability of such relief. Further,
the Court finds that to the extent to which this
holding
might
“incentivize
governmental
misconduct through the withholding of Giglio
material until after § 2255 relief has been denied”
the risk is not demonstrated by this case.
Accordingly, the Court finds that Mandacina’s
petition cannot proceed under § 2255(e), and must,
therefore, be dismissed.
III. CONCLUSION
For the reasons set forth above, Petitioner John A.
Mandacina’s Petition for Writ of Habeas Corpus
under 28 U.S.C. § 2241 (Doc. 1) is DISMISSED
pursuant to 28 U.S.C. § 2255(e).
SIGNED this 18th day of November 2019.
/s/ Sara Darrow
Sara Darrow
Chief United States District Judge

24A
APPENDIX B
United States Court of Appeals
for the Seventh Circuit
Mandacina v. Entzel
October 1, 2020, Argued;
March 12, 2021, Decided
No. 20-1027
Easterbrook, Circuit Judge.
John Mandacina paid Patrick McGuire $25,000 to
kill a potential witness in a federal criminal case.
His role in the murder was uncovered, and he was
sentenced to life imprisonment after a jury found
him guilty. The opinion affirming his conviction
and sentence provides details. United States v.
McGuire, 45 F.3d 1177 (8th Cir. 1995).
Mandacina filed and lost a collateral attack under
28 U.S.C. §2255. While an appeal from that
decision was pending, he attempted to add a
contention that the prosecutor had failed to
produce information that one of the witnesses at
trial—FBI agent Daniel Craft—had committed
misconduct in other cases. The Eighth Circuit
affirmed without discussing this contention.
Mandacina v. United States, 328 F.3d 995 (8th Cir.
2003). Mandacina then requested permission to
pursue a second collateral challenge under §2255

25A
based on information about Craft. The Eighth
Circuit denied this request without much
explanation. Mandacina v. United States, No. 052186 (8th Cir. June 8, 2005).
More than 13 years later, Mandacina filed this
proceeding seeking a writ of habeas corpus under
28 U.S.C. §2241. He requests collateral relief
based on the same considerations presented to
the [*761] Eighth Circuit in 2003 and 2005. The
district court denied the petition, ruling that it is
blocked by §2255(e), which says that the writ of
habeas corpus is unavailable "unless it also
appears that the remedy by motion [under §2255]
is inadequate or ineffective to test the legality of
his detention."
Mandacina does not contend that Craft engaged in
misconduct while investigating or testifying in his
prosecution. He maintains only that Craft
committed misconduct in other cases—Craft
misrepresented the results of a polygraph
examination and on a different occasion misfiled
the report of an interview—and that he could have
used that information to impeach Craft's
testimony in his case. He describes this as a claim
based on Giglio v. United States, 405 U.S. 150, 92
S. Ct. 763, 31 L. Ed. 2d 104 (1972), which it is not.
Giglio dealt with a prosecutor who had suborned
perjury by inducing a witness to lie under
oath. Mandacina does not contend that he has any
evidence implying that Craft lied on the stand
during his trial. Indeed, he does not contend that

26A
the prosecutors knew of Craft's misconduct. His
claim therefore rests on United States v. Bagley,
473 U.S. 667, 676, 105 S. Ct. 3375, 87 L. Ed. 2d 481
(1985), which extended Brady v. Maryland, 373
U.S. 83, 83 S. Ct. 1194, 10 L. Ed. 2d 215 (1963),
from directly exculpatory to impeaching
information. See also Strickler v. Greene, 527 U.S.
263, 119 S. Ct. 1936, 144 L. Ed. 2d 286 (1999).
From now on, we describe Mandacina's contention
as a Brady claim.
His principal problem, which the district judge
deemed insurmountable, is that Brady claims are
made and decided under §2255 routinely. There is
nothing "inadequate or ineffective" about §2255
from that perspective. See Lee v. Watson, 964 F.3d
663, 665, 667 (7th Cir. 2020). Mandacina himself
actually presented this Brady claim under §2255:
once by an effort to add issues during an appeal,
and again by a request for permission to file a
second §2255 motion. He presented a different
Brady claim that the Eighth Circuit rejected on
the merits in 2003. 382 F.3d at 1000-02.
That Mandacina did not succeed does not make
§2255 inadequate or ineffective; it takes a
structural problem in §2255 to merit that
description. See, e.g., Higgs v. Watson, 984 F.3d
1235, 1239-40 (7th Cir. 2021); Bourgeois v. Watson,
977 F.3d 620, 633 (7th Cir. 2020); Purkey v. United
States, 964 F.3d 603, 614-15 (7th Cir. 2020);
Webster v. Daniels, 784 F.3d 1123, 1136 (7th Cir.
2015) (en banc). Nor is a prisoner entitled to

27A
review under §2241 just because the court that
resolved motions under §2255 did not write an
opinion. We do not use §2241 to regulate how our
colleagues in other circuits handle their business.
See Vialva v. Watson, 975 F.3d 664, 665-66 (7th
Cir. 2020).
According to Mandacina, §2255 is structurally
deficient as applied to all Brady claims, because
the evidence showing a violation of Brady almost
always comes to light years after the trial. That's
a considerable overstatement; we see many Brady
claims based on evidence discovered soon after
trial. And §2255(f)(4) makes allowance for latediscovered evidence. It restarts the one-year time
for collateral review on "the date on which the facts
supporting the claim or claims presented could
have been discovered through the exercise of due
diligence." Mandacina's problem is not that §2255
is unavailable for Brady claims, but that he
squandered the one §2255 proceeding allowed as
of right. That brought into play the limit on second
or successive petitions.
The limits on second or successive §2255 motions
have exceptions of their own. One appears in
§2255(h)(1): a further §2255 motion is allowed
when it contains "newly discovered evidence that,
if proven and viewed in light of the evidence as a
whole, would be sufficient to establish by clear and
convincing evidence that no reasonable factfinder
would have found the movant guilty of the
offense". If Craft's testimony had been essential to

28A
the conviction, and he had committed misconduct
in this case rather than some other, that
description might be apt. But his testimony was
not essential (as the Eighth Circuit's opinion on
direct appeal shows), and Mandacina does not
contend that any of Craft's misconduct affected the
investigation of this case. So Mandacina cannot
meet the threshold in §2255(h)(1), but this just
shows that he cannot obtain relief, not that there's
a structural flaw. The high threshold in
§2255(h)(1) reflects a legislative judgment that
merely impeaching evidence—the sort of evidence
that Mandacina wants to present—falls short of
the grave constitutional flaws that could justify
multiple rounds of collateral review.
None of the decisions in this circuit holds that a
desire to present impeaching evidence in a second
or successive proceeding identifies a structural
flaw in §2255. Our cases permit use of §2241 to
deal with genuinely fundamental problems—for
example, ineligibility for the death penalty in
Webster, or actual innocence in In re Davenport,
147 F.3d 605 (7th Cir. 1998). It would take a
dramatic revision of this circuit's precedents to
treat lack of access to impeachment material as
exposing a structural flaw in §2255. See Webster,
784 F.3d at 1136: "[S]omething more than a lack of
success with a section 2255 motion must exist
before the savings clause is satisfied." Our more
recent decisions, such as Lee, Purkey, and Higgs,
repeat this observation. See also Higgs v. Watson,
No. 21-1073 (7th Cir. Jan. 15, 2021)

29A
(nonprecedential disposition holding that a Brady
claim does not permit use of §2241).
What is more, by waiting 15 years between
discovering Craft's misconduct and first making a
Brady claim under §2241 (and 13 years after the
claim's definitive rejection by the Eighth Circuit),
Mandacina vastly exceeded the one-year window
opened by §2255(f)(4) for newly discovered
evidence. Although §2255(f)(4) applies only to
§2255, and not to §2241, access to the writ of
habeas corpus has always been limited by
equitable principles. This was the basis of the
"abuse of the writ" doctrine that prevailed before
the amendments to §2255 in 1996. (We recognize
that the doctrine of abuse of the writ no longer
applies to litigation under §2255, see Burris v.
Parke, 95 F.3d 465, 469 (7th Cir. 1996) (en banc),
but it retains vitality when a prisoner seeks relief
under §2241.) Someone who waits until a retrial
would be impossible has abused the writ. See
Williams v. Sims, 390 F.3d 958, 961-62 (7th Cir.
2004); Higgason v. Clark, 984 F.2d 203, 206 (7th
Cir. 1993). This crime was committed more than
30 years ago. Mandacina's delay independently
precludes the relief he seeks now.
Finally, Mandacina's contention that any limit on
§2241 unconstitutionally suspends the writ of
habeas corpus conflicts with decisions holding that
the Suspension Clause does not entitle anyone to
successive collateral attacks on a criminal
judgment. See Felker v. Turpin, 518 U.S. 651, 663-

30A
64, 116 S. Ct. 2333, 135 L. Ed. 2d 827 (1996);
Swain v. Pressley, 430 U.S. 372, 97 S. Ct. 1224, 51
L. Ed. 2d 411 (1977); cf. United States v. Hayman,
342 U.S. 205, 72 S. Ct. 263, 96 L. Ed. 232 (1952).
See also Lindh v. Murphy, 96 F.3d 856, 867-68 (7th
Cir. 1996) (en banc), vacated on other grounds, 521
U.S. 320, 117 S. Ct. 2059, 138 L. Ed. 2d 481 (1997).
One opportunity for one round of review suffices.
Affirmed
APPENDIX C
United States Court of Appeals
for the Seventh Circuit
Mandacina v. Entzel
October 1, 2020, Argued;
March 12, 2021, Decided
No. 20-1027
Final Judgment
The judgment of the District Court is AFFIRMED,
with
costs,
in
accordance
with
the
decision of this court entered on this date.

